      Department of Homeland Security




            FEMA Can Improve Its Purchase Controls at
                        Joint Field Offices




OIG-13-77                                           April 2013

                      OFFICF. OF INSPF.CTOR GENERAL
                             Department ofHome1and Security
                              W03hin,ton, DC 2052 1 i   " ........ o i.~ .dh>. ~ o y



                                         APR 1 0 2013

MEMORANDUM FOR:               Elizabeth A. Zimmerman
                                                                               , Response and Recovery
                                                                                  Agency

FROM:
                                         Inspector



SUBJECT:                     FEMA Can Improve Its Purchase Controls at Joint Field
                             Offices
                             DIG Project No. 12-113,EMO-FEMA

Attached for your action is our final report, FEMA Can Improve Its Purchase Can trois at
Jaint Field Offices. We incorporated the formal comments from the Federal Emergency
Management Agency (FEMA) in the final report.

The report cootaio5 two recommendations aimed at improving purchasing controls at
FEMA Joint Field Offices. Your office concurred with these recommendations. A5
prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for Office of Inspector Generill Report Recommendations, within 90 days of
the date of this memorandum, please provide our office with a written response that
includes your (I) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current statu5 of
the recommendation. Until your response is received and evaluated, the
recommendations will be coo5idered open and unresolved.

Bil5ed on information provided in your response to the draft report, we consider the
recommendations resolved. Once your office has fully implemented the
recommendations, please submit a formal claseout letter to us within 30 day5 so that
we may dose the recommendations. The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Consistent with our responsibility under the Inspectar Generol Act, we are providing
copie§ of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Depilrtment of Homeland Security. We will post
the report on our website for public dissemination.
Please call me with any questions, or your staff may contact John Kelly, Deputy Assistant
Inspector Genera l, Office of Emergency Oversight, at (202) 254-4100.

Attachment
                                   OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary............................................................................................................. 1

Background ........................................................................................................................ 2

Results of Audit ................................................................................................................... 5

           FEMA Needs To Improve Its Property Internal Controls at JFOs ............................ 5
           Strategic Sourcing ................................................................................................... 5
           Recommendation.................................................................................................... 7

           Acquisition Management ........................................................................................ 7
           Recommendation.................................................................................................... 9

           Management Comments and OIG Analysis ............................................................ 9


Appendixes


           Appendix A:          Objectives, Scope, and Methodology ............................................ 10 

           Appendix B:          Management Comments to the Draft Report ............................... 11 

           Appendix C:          Major Contributors to This Report ................................................ 13 

           Appendix D:          Report Distribution ........................................................................ 14 



Abbreviations
           BPA                   blanket purchase agreement
           DHS                   Department of Homeland Security
           DISC                  Disaster Information Systems Clearinghouse
           FEMA                  Federal Emergency Management Agency
           IAA                   interagency agreement
           JFO                   Joint Field Office
           OIG                   Office of Inspector General
           OMB                   Office of Management and Budget






                       OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Executive Summary
In 2011, State Governors praised the Federal Emergency Management Agency (FEMA)
for the Federal response to Hurricane/Tropical Storm Irene. FEMA won high marks for
providing support for recovery to localities along the Atlantic seaboard from Puerto Rico
to Maine. Notwithstanding the compliments from the recipient States for the support
provided, FEMA has the opportunity going forward to take advantage of substantial cost
savings and improve internal controls over consumable materials purchased by the
temporary field offices that support response and recovery efforts.

At the time of our fieldwork, the field offices were no longer operating under
emergency conditions, but instead had settled into the routine of providing crucial,
although not urgent, support to the ongoing recovery efforts. The nature of the
operations we witnessed was not life-sustaining, but rather involved the important role
of helping communities return to normalcy. Because of the predictable nature of the
need for consumable materials, FEMA can take advantage of planned, cost-effective
acquisitions during recovery operations. The rhythm of operations at the field offices
would also allow for adequate asset oversight and improved acquisition management.

FEMA could have saved more than $1 million by better leveraging the Federal
Government’s buying power through consolidation of requirements, especially for
commonly purchased goods such as office supplies. Furthermore, the disaster purchase
card transactions were carried out without sufficient oversight, as required by Federal
regulations. Increasing management oversight of the acquisition process may eliminate
some unnecessary purchases.

This report focuses on conditions at temporary field sites at the time of our visits in
2011 and 2012, and contains two recommendations to assist FEMA in its management
and oversight of response and recovery operations.




www.oig.dhs.gov                             1                                  OIG-13-77

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Background
As shown in figure 1 and table 1, Hurricane Irene developed in the Atlantic Ocean and
made landfall in Puerto Rico in August 2011, then headed to the U.S. mainland, where it
struck several southern and mid-Atlantic States before eventually being downgraded to
a tropical storm as it proceeded through New England during September.

                          Figure 1. Storm Track, Hurricane Irene




       Source: National Oceanic and Atmospheric Administration, U.S. Department of Commerce.





www.oig.dhs.gov                                2                                       OIG-13-77

                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


               Table 1. Storm’s Progression and Irene Disaster Declarations 

                  2011 Date           Location           Designation
                    Aug. 27          Puerto Rico       Hurricane Irene
                    Aug. 31        North Carolina      Hurricane Irene
                     Sept. 3           Virginia        Hurricane Irene
                    Sept. 28    District of Columbia   Hurricane Irene
                    Sept. 16          Maryland         Hurricane Irene
                    Sept. 30          Delaware         Hurricane Irene
                     Sept. 3        Pennsylvania       Hurricane Irene
                    Aug. 31          New Jersey        Hurricane Irene
                    Aug. 31           New York         Hurricane Irene
                     Sept. 1        Connecticut         Tropical Storm
                     Sept. 3        Rhode Island        Tropical Storm
                     Sept. 3       Massachusetts        Tropical Storm
                     Sept. 1          Vermont           Tropical Storm
                     Sept. 3      New Hampshire         Tropical Storm
                    Sept. 13           Maine            Tropical Storm
                 Source: Office of Inspector General, based on FEMA data.

To coordinate the Federal, State, tribal, and local governments’ response and recovery
activities related to Irene, FEMA established temporary Joint Field Offices (JFOs) in each
of the affected locations.1 The Office of Inspector General (OIG) visited many of the
JFOs to provide monitoring and oversight of the expenditure of public funds.

Based on our fieldwork, we identified a number of issues that warranted further
examination. This report is one in a series that focuses on one of those issues: FEMA’s
acquisition of materials, such as office supplies and other consumables, needed to
manage response and recovery operations at the JFOs. At the time of our fieldwork, the
field offices were no longer operating under emergency conditions, but instead had
settled into the routine of providing crucial, although not urgent, support to the ongoing
recovery efforts. The nature of the operations we witnessed was not life-sustaining, but
rather involved the important role of helping communities return to normalcy.

This report does not focus on life-saving commodities, nor more durable equipment
such as laptop computers, modems, printers, workstations, and other office equipment
needed to set up a JFO. We addressed life-saving commodities such as water, meals,

1
 The JFO is a temporary coordination center established locally to facilitate field-level incident
management activities; it provides a central location for coordinating Federal, State, local, tribal,
nongovernmental, and private-sector organizations with primary responsibility for activities associated
with threat response and incident support.

www.oig.dhs.gov                                     3                                          OIG-13-77

                       OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


cots, tarps, and blankets intended to sustain life and prevent further property damage
during a disaster in an earlier report, FEMA’s Sourcing for Disaster Response Goods and
Services (OIG-09-96, August 2009). FEMA stores durable equipment centrally at its
Disaster Information Systems Clearinghouse (DISC) and deploys it when FEMA
establishes a JFO shortly after a Presidential disaster declaration. FEMA procedures call
for the durable equipment to be returned to the DISC after the JFO closes.

Acquisition of Material for the JFO

As of January 2012, FEMA had spent about $6 million at the JFOs established for
Hurricane/Tropical Storm Irene for consumable items such as office supplies, paper, ink,
and toner cartridges. The procurement vehicles available to the JFOs include
Government purchase cards, blanket purchase agreements (BPAs), interagency
agreements (IAAs), and acquisition contracts. These procurement vehicles are
described below.

       Government Purchase Card – A centrally billed charge card used to pay for
       goods and services in support of official Government business. In addition to the
       standard purchase card for regular operations, FEMA uses a disaster purchase
       card that is linked to specific funds, and used extensively at JFOs for disaster-
       related purchases. Government purchase cards can be used as an acquisition
       and payment vehicle if the amount of the acquisition is less than the micro-
       purchase threshold (generally $3,000) and simply as a payment vehicle for
       acquisitions that cost more than the micro-purchase threshold.

       Blanket Purchase Agreement (BPA) – A simplified method of filling anticipated
       repetitive needs for supplies or services by establishing charge accounts with
       qualified sources.

       Interagency Agreement (IAA) – An agreement negotiated with other Federal
       agencies to provide common supplies and commodities used at a disaster site.

       Acquisition Contracts – Government-wide acquisition contracts are established
       by one Federal agency and may be used by another. Such contracts offer many
       different supplies and services that may be useful in a disaster response or
       recovery effort.

FEMA encourages the use of purchase cards for acquisitions not exceeding $3,000 as a
flexible way of obtaining commercial goods and services through over-the-counter,
telephone, and catalog purchases. However, the purchase card can also be used to pay
for goods and services that are offered under BPAs. FEMA said that it makes most of its

www.oig.dhs.gov                             4                                   OIG-13-77

                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


commercial acquisitions with a purchase card. However, FEMA did not know whether
any of the purchase card acquisitions were for items ordered on BPAs.

BPAs are intended to be used for filling anticipated or repetitive needs for supplies and
services by establishing charge accounts with prequalified vendor sources. The
advantage of a BPA is that it allows for the acceleration of a competitive order, and a
lower price can be negotiated. Discounts often are not applied to purchase card
transactions.

Results of Audit
FEMA performed property management functions appropriately following
Hurricane/Tropical Storm Irene, with certain exceptions that are the subject of this
report. Specifically, FEMA did not have adequate internal controls over the acquisition
process, which resulted in insufficient program oversight, the purchase of unnecessary
items, and missed opportunities for cost savings. Some of the conditions might have
been avoided if FEMA had implemented corrective actions that we previously identified.

       FEMA Needs To Improve Its Property Internal Controls at JFOs

       Notwithstanding the provisions of OMB [Office of Management and Budget]
       Circular A-123, which requires Federal agencies to improve the accountability
       and effectiveness of publicly funded programs by establishing internal controls,
       FEMA did not have adequate internal controls at its JFOs following Hurricane
       Irene, even though several weeks had elapsed since the event and support
       operations were becoming routine. At the time of our fieldwork, the JFOs were
       not operating under emergency conditions. Areas in which FEMA did not have
       adequate controls included strategic sourcing and acquisition management.

       Strategic Sourcing

       Strategic sourcing is the process by which a Government agency analyzes the
       way it spends money through contracts, BPAs, IAAs, and purchase cards in order
       to leverage purchasing power by taking advantage of available discounts on
       commonly purchased goods and services. OMB Circular A-123, Appendix B,
       requires agencies to analyze their spending data to determine when sufficient
       quantities of like items are being procured, and evaluate how to leverage the
       Government’s buying power through consolidation of requirements.




www.oig.dhs.gov                             5                                    OIG-13-77

                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           The Government purchase card program provides an efficient, low-cost
           procurement and payment method to acquire goods and services, and it is the
           preferred method to purchase and to pay for micro-purchases of $3,000 or less.
           Despite the streamlined benefits associated with the use of the purchase card,
           other procurement methods, such as the BPA, can provide substantial cost
           savings. FEMA guidance specifies that BPAs should be used for repetitively
           purchased supplies or services.2 In fact, OMB best practices to ensure effective
           strategic sourcing for Government purchase cards recommend that agencies
           identify high-volume, commonly used supplies (such as office supplies); focus on
           awarding BPAs; and develop other strategies to improve the value of taxpayer
           dollars.

           The Robert T. Stafford Disaster Relief and Emergency Assistance Act section
           307(a)(1) states that “preference shall be given, to the extent feasible and
           practicable, to those organizations, firms, and individuals residing or doing
           business primarily in the area affected by such major disaster or emergency,”
           and FEMA has made a great effort to maximize the use of local businesses for
           purchase card purchases. However, FEMA management told us that BPAs could
           also be used to meet local purchasing requirements, since it takes only 2 hours
           to set up a BPA. In addition, many of the companies that have existing BPAs
           operate in the communities affected by Hurricane/Tropical Storm Irene.

           Despite the variety of acquisition vehicles, FEMA relied on the disaster purchase
           card for more than $6 million in transactions, and therefore did not take
           advantage of the cost savings available through strategic sourcing. Only one of
           the Hurricane Irene JFOs at the time of our fieldwork used OMB’s recommended
           best practices. According to FEMA, the other JFOs did not practice strategic
           sourcing. We raised similar concerns in an earlier report, FEMA’s Sourcing for
           Disaster Response Goods and Services (OIG-09-96), which pointed out that
           despite generally successful delivery of disaster-related goods and services,
           ineffectiveness and waste occurred. FEMA concurred with the report’s findings,
           but has yet to implement the recommended corrective actions.

           Because the FEMA purchase card transaction data were recorded by vendor
           billing address, which often was a remotely located site, we were unable to
           accurately segregate the amounts by JFO. Nevertheless, using the dollar total of
           purchase card transactions from all JFOs, and the Department of Homeland
           Security (DHS) guidance that indicates the Government can save about 19 percent
           of the total purchase price of supplies and services through discounts that are

2
    The FEMA Disaster Contracting Desk Guide (v. 23).

www.oig.dhs.gov                                         6                          OIG-13-77

                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        available with BPAs, we estimate that FEMA could have saved about $1.1 million
        if it had used strategic sourcing strategies at the JFOs following Hurricane Irene.

        Conclusion

        FEMA did not take advantage of cost savings available through strategic sourcing
        at JFOs, especially when making repeat purchases. FEMA should have estimated
        the need for common, repetitively used items such as paper and toner
        cartridges, and obtained them at discounted prices.

        Recommendation

                 We recommend that the Federal Emergency Management Agency Chief
                 Procurement Officer:

                 Recommendation #1: Effectively communicate Federal Emergency
                 Management Agency strategic sourcing guidance to acquisition staff at
                 headquarters and in the field, including Joint Field Offices as they are
                 established.

        Acquisition Management

        Because FEMA had not implemented a required electronic tracking system for
        purchase card transactions, it was unable to exercise sufficient oversight of
        acquisitions at the JFOs. Although the DHS Acquisitions Guide requires that
        agencies maintain an electronic record-keeping system for purchase card
        transactions, such a system did not exist at the time of our fieldwork. Rather,
        FEMA staff said that they used a paper-based alternative that was cumbersome
        and provided little oversight. We previously reported that FEMA’s existing
        information technology systems, for a number of functions, do not support
        disaster response activities effectively.3

        Nevertheless, JFO staff in New York and Puerto Rico took the initiative to
        implement acquisition tracking systems for managing purchase card records,
        thus providing a level of oversight for JFO, FEMA management, and OIG staff.
        The continually updated database at those two JFOs contained a list of products
        and services ordered by staff, in order to avoid redundant purchases and aid

3
 Federal Emergency Management Agency Faces Challenges in Modernizing Information Technology
(OIG-11-69), April 2011; and FEMA’s Process for Tracking Public Assistance Insurance Requirements
(OIG-12-18), December 2011

www.oig.dhs.gov                                    7                                        OIG-13-77

                      OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      decision makers. Although the system required significant time and effort
      because FEMA’s various ordering systems were not integrated, the database was
      accessible online and allowed review of transactions in detail. An agency-wide
      tracking system, if implemented correctly, would be more user-friendly and
      would allow greater visibility.

      The remaining JFOs did not use an automated tracking system. At those
      locations, neither FEMA nor our auditors were able to review all requisitions,
      receipts, and supporting documentation. Although we had access to some of the
      paper-based records, those records did not always contain the documents
      necessary to determine whether FEMA actually received all the items ordered,
      or tracked all accountable property. We also determined that FEMA did not
      maintain some of the acquisition documents centrally. Rather, some FEMA
      temporary disaster assistance employees kept the purchase card receipts and
      other records at their homes. According to FEMA guidance, there is no
      requirement to maintain historical records of consumable property.

      Based on our limited review of transactions at one of the locations with a
      tracking system, we identified the acquisition of a number of potentially
      inappropriate items such as iPad accessories, a high-end car stereo global
      positioning system, snow blowers that were never needed, and golf carts rented
      exclusively to shuttle JFO workers to and from their cars in the parking lot. FEMA
      purchase card holders acquired those items before our visit, and the JFO
      Comptroller said that he would never have approved “such wasteful spending.”
      Although the cost of the items that we identified in our limited review totaled
      less than $10,000, similar acquisitions may have occurred at the other JFOs.
      Without an automatic tracking system in place, management cannot adequately
      monitor such activity.

      Conclusion

      FEMA has not implemented a required electronic tracking system for purchase
      card transactions at JFOs. Because of the need for a focused approach to
      acquisition tracking, oversight requirements are not met, internal control
      processes are not in place, and FEMA risks wasteful or fraudulent transactions
      going undetected.




www.oig.dhs.gov                           8                                   OIG-13-77

                     OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      Recommendation

             We recommend that the Federal Emergency Management Administrator:

             Recommendation #2: Implement an agency-wide electronic tracking
             system for JFO acquisitions, accessible on the FEMA headquarters Intranet.

      Management Comments and OIG Analysis

      FEMA concurred with recommendation 1. FEMA stated that it has taken steps
      toward providing updated copies of the Guide to Utilizing DHS Strategically
      Sourced Contracts, providing updated information on DHS strategically sourced
      contracts, and conducting strategic source training to Acquisition staff. We
      concur with these actions and will determine the status of these
      recommendations once we receive the detailed corrective action plan in FEMA’s
      90 day letter.

      FEMA concurred with recommendation 2. FEMA stated that it will be moving
      toward implementing PaymentNet, a new FEMA-wide electronic tracking system
      for JFO acquisitions. We concur with these actions and will determine the status
      of these recommendations once we receive the detailed corrective action plan in
      FEMA’s 90 day letter.




www.oig.dhs.gov                           9                                  OIG-13-77

                       OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The objective of this audit was to determine the extent to which FEMA’s JFOs are
managing the acquisition of assigned property. We interviewed officials at JFOs, FEMA
headquarters, and regional offices, where we observed operations and discussed issues
concerning property management. We also performed a forensic analysis on FEMA
systems to measure the degree of program performance, as well as the validity and
reliability of the computer-generated data. We researched Federal laws, regulations,
policies, guidance, and other information related to the subject matter.

We conducted this performance audit between June and December 2012, pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.




www.oig.dhs.gov                            10                                  OIG-13-77

                                OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                                      u.s. I)~ p . rlm( n t of I l omdand S«urit)·
                                                                                      Washington. DC 20472




                                              FEB 2 0 2013

       MEMORANDUM FO R:                 D. Michael Beard
                                        Assistant Inspector General
                                        Office of Emergency Management Oversight
                                        Department of Homeland Security

       FROM:                            D,, ;d J. Kaufman         ~I(I ~
                                                                    ..,
                                        Associate Administnuor ror r)
                                        Policy. Program Analysis an International Affairs

       SU BJECT:                        "FEMA CCII/lmprove lis Purchase Comrols at Joint Field Offices" -
                                        For Official Use Gnly
                                        OIG Project No.: Il-113-EMO-FEMA

       Th is memorandum serves as the Federal Emergency Management Agency's (FEMA) offici al written
       response to the Office o rlnspeclor Gencral"s (OIG): DRAFT REPORT: "FEA1A Con Improve Irs
       Purchase Controls (It Joil1l Field Offices" - For Official Use Only - OIG Project No.: I l-113-EA/O-
       FEMA. We greatly appreciate the opportunity to provide these written comments on the draft report
       and specific responses to each recommendation. The rollowing arc our responses to the
       recommendations for implementation:

       O IG Recomm endation 1: We rccommend that the Federal Emergenc), Management Agenc), Chie f
       Procurement Officer communicate Federal Emergency Managcment Agency strategic sourcing
       guidance to acqu isition stalT al headqua rters and in the fie ld, including Joint Field Offices as they are
       established.

       FEMA Response: Co nc ur. To prcpare thc Contracting Officers for purc hasing for disasters.
       FEMA's Strategic Sourc ing Team provides outreach to the Acqu isition community (Contracting
       Officers, Contract Specia lists. Contracting O ffi cer Representatives. and Program Managers) by
       providing them with the most recent ··Gu ide to Utilizing DHS Strateg ically Sourced Contracts". This
       guide serves as a resource to purchase goods and services duri ng times of disasters.

        In addit ion, communication is disseminated to the Acquisition community whe n DHS has
        implemented a new stratcgically sourced contract. Lastly. both the DHS and FEMA Strategic
         ourcing intranet sites are updated with the latest infonnation regard ing the usc and availability orall
        DHS Strategically Sourced contracts.




www.oig.dhs.gov                                                  11                                                                  OIG-13-77

                            OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




         DHS periodically provides training to users to ensure their understanding of how to purchase goods
         and services from strategically sourced contracts. Training for the pun:hase of office supplies was
         conducted December, 2012. FEMA and DHS will conduct more of these trainings and workshops in
         the upcoming future.

         OIG Recommendation 2: We recommend that the Federal Emergency Management Agenc)' Chief
         Procurement Officer implement an agency·wide electronic tracking system for JFO acquisitions,
         accessible on the FEMA headquarters Intranet.

         FEMA Response: Concur. FEMA had utilized the Credit Card Transaction Management System.
         However, this system is now defunct. In March 2013, FEMA will be transferring to the use of an
         electronic system named "PaymentNet". Currently, there is an ongoing effort to develop a training
         course on the use of "PaymentNet" for Purchase card holders and Approving officials.

         Thank you for the work that you and your team did to better infonn us throughout this audit. The
         Acquisition Policy and Legislation Division, and its Acquisition Policy Oversight Branch, have made
         recent, efficient, and diligent efforts toward closing these two (2) specific, open recommendations.
         We look forward to OIG's final report. Please direct any questions regarding this response to Gary
         McKeon, FEMA's Branch Chief Audit Liaison Office, at 202·646·1308.




                                                           2




www.oig.dhs.gov                                          12                                                     OIG-13-77

                     OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix C
Major Contributors to This Report
Kaye McTighe, Director
Nigel Gardner, Audit Manager
Nathaniel Nicholson, Auditor
John Meenan, Program Analyst




www.oig.dhs.gov                       13                    OIG-13-77

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix D
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
DHS FEMA Liaison
Acting Chief Privacy Officer

Federal Emergency Management Agency

Chief of Staff
Chief Financial Officer
Chief Counsel
Associate Administrator for Policy and Program Analysis
Director, Program Analysis and Evaluation Division
Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               14                        OIG-13-77

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
